<html>
<title> - FROM L'AQUILA TO COPENHAGEN: CLIMATE CHANGE AND VULNERABLE SOCIETIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  FROM L'AQUILA TO COPENHAGEN: CLIMATE CHANGE AND VULNERABLE SOCIETIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2009

                               __________

                           Serial No. 111-45

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
51-256                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Thomas Karl, Ph.D., Director, National Climatic Data Center, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    14
Mr. Kemal Dervis, Vice President and Director, Global Economy and 
  Development, Brookings Institution (former Administrator, 
  United Nations Development Programme)..........................    22
Anthony Janetos, Ph.D., Director, Joint Global Change Research 
  Institute, Pacific Northwest National Laboratory, University of 
  Maryland.......................................................    40
David Wheeler, Ph.D., Senior Fellow, Center for Global 
  Development....................................................    48
Redmond Clark, Ph.D., Chief Executive Officer, CBL Industrial 
  Services.......................................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     5
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois:
  Prepared statement.............................................    10
  Wall Street Journal article dated July 20, 2009................    79
Thomas Karl, Ph.D.:
  Prepared statement.............................................    17
  Material submitted for the record..............................    94
Mr. Kemal Dervis: Prepared statement.............................    24
Anthony Janetos, Ph.D.: Prepared statement.......................    43
David Wheeler, Ph.D.: Prepared statement.........................    51
Redmond Clark, Ph.D.: Prepared statement.........................    70
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    86

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   110


  FROM L'AQUILA TO COPENHAGEN: CLIMATE CHANGE AND VULNERABLE SOCIETIES

                              ----------                              


                        THURSDAY, JULY 23, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. I appreciate our panelists' patience as 
we get our subcommittee organized.
    The subcommittee hearing will come to order.
    This is the Foreign Affairs Subcommittee on Asia, the 
Pacific and the Global Environment. The topic of the hearing 
this afternoon is ``L'Aquila to Copenhagen: Climate Change and 
Vulnerable Societies.''
    We are very happy and honored to have some of our 
distinguished members of the panel join us this afternoon 
giving us their sense of expertise and understanding of this 
serious issue now facing not only our country but other 
countries and regions of the world.
    I think for purposes of expediting our hearing this 
afternoon, in consultation with my ranking member, my good 
friend, the gentleman from Illinois, why don't we--we have Dr. 
Karl with us already, Dr. Dervis, Dr. Janetos, Dr. Wheeler, and 
Dr. Clark. I think we need one more.
    I would like to begin our hearing this afternoon with my 
opening statement, and prefacing my opening statement with the 
fact that the subcommittee held a hearing last year, in 
February. And, of course, at that time, the political climate 
in our country was very heavy in terms of Presidential 
elections that were then pending and the issues of what came 
about in the Bali Conference concerning the issue of climate 
change. I thought we had a very lively debate with some of the 
members of our subcommittee, especially my good friend, the 
gentleman from California, Mr. Rohrabacher, who happens to be a 
senior member of the Science and Technology Committee. He had 
expressed some concerns even about the science, if there really 
is a global warming or climate change occurring in our planet.
    We also had the distinction of several members--ambassadors 
of the Pacific Island Nations credited to both New York and to 
the United States with a public briefing that was held.
    And in view of not knowing with any sense of certainty what 
would be the political climate and the issues that were raised 
during the height of the Presidential elections, it is quite 
obvious that the new administration under President Obama has 
made climate change one of his top priorities of his 
administration. And addressing the issue of the fact that for 
some 8 years, because our country never signed on to the Kyoto 
Protocol, it became very difficult to really know what the 
basis of what really is our fundamental foreign policy toward 
the issue of climate change.
    That was clearly manifested in the Bali Conference that I 
attended when, immediately after the election of Prime Minster 
Kevin Rudd of Australia, his government immediately signed on 
to the Kyoto Protocol and left us on a limb. I think we were 
one of the two or three countries in the world who never did 
sign on to the Kyoto Protocol.
    I will say, in fairness to the Bush administration, there 
had been efforts during the Bush administration in discussing 
environmental and climatic issues, maybe not on the scale where 
the expectations or the whole world was focusing on the Kyoto 
Protocol and the post-Kyoto Protocol where we are supposed to 
come out with some resolution to the issue by the year 2012 
when the Kyoto Protocol will be terminated. And that some time 
in January, I believe, in Copenhagen that the countries of the 
world will again meet and convene on discussing again the issue 
of climate change.
    The chair believes that our country and probably most of 
the industrialized countries--I don't think I need to dwell on 
the fact that this issue is lively debated among the 
industrialized countries. We are talking about China, India, 
the United States, Brazil, and Indonesia--among the top five 
most populous nations in the would world.
    There seems to be a common thread leading on the very issue 
of climate change. You are talking about population situations. 
You are talking about whether or not the sciences still hold up 
to some of the criticisms that have been raised or concerns of 
whether or not there really is a climate change issue 
occurring.
    So this afternoon, since the time that, we have moved on to 
the new administration. It was just recently that the Waxman-
Markey bill, H.R. 2454, was recently passed in the House. And 
in that bill contains some attention given to the international 
recognition of the problem. It isn't just the United States but 
all countries in the world.
    I just want to say that climate change presents an enormous 
threat to every country and every region of the world. Rising 
temperatures and sea levels, decreasing supplies of fresh 
water, and increasing frequency in severity of hurricanes and 
other weather events have already had a significant negative 
impact on the physical and the biological environment, and on 
human health.
    In terms of national security, climate change has been 
termed a threat accelerant, which may turn existing 
instabilities into open conflicts. The most serious impacts are 
coming, and sooner than even the most pessimistic predictions 
made by the world's best scientists.
    A recent study entitled, ``Humanitarian Implications of 
Climate Change,'' based on research conducted by the United 
Nation's Office for the Coordination of Humanitarian Affairs 
and CARE organization--and I quote:

        ``Climate change is happening with greater speed and 
        intensity than initially predicted. Safe levels of 
        atmospheric greenhouse gases may be far lower than 
        previously thought. We may be closer to an irreversible 
        tipping point than had been anticipated. Meanwhile, 
        global CO2 emissions are rising at steeper and steeper 
        rates. Emissions reduction efforts have been too 
        little, too late.''

    There is no group of people in greater danger than the poor 
and the vulnerable. Indeed, those living on low-lying coral 
atolls, coastal areas, and those who depend on subsistence 
farming will face a threat even under the best of 
circumstances.
    As the State Department Special Envoy for Climate Change, 
Mr. Todd Stern, said in May, ``One of the greatest challenges 
in climate change is that the developing countries, indeed the 
poorest of developing countries, are suffering serious impacts. 
They have done the least to contribute to the problem, and they 
are set up to be the most badly affected by it.''
    There are two ways to address climate change and its 
impacts. First, we can try to mitigate the greenhouse gas 
emissions; or, secondly, we can try to adapt by responding to 
rising sea levels, ocean acidification, coastal erosion, lower 
crop yields and fisheries productivity, increasing numbers of 
extreme weather events, lessened access to fresh water and 
greater health problems resulting from climate-sensitive 
diseases. Such measures can range from planting mangroves to 
act as storm barriers in coastal regions to funding research on 
salinity-resistant rice and drought-resistant crops, as well as 
financial support to strengthen public health infrastructure.
    The recent G-8 summit and the Major Economies Forum (MEF) 
which represents 17 countries, accounting for 80 percent of the 
world's greenhouse gas emissions; both meetings held in Italy 
did move the ball forward when addressing climate change by 
agreeing to a global, long-term goal of reducing global 
emissions by at least 50 percent below 1990 levels by 2050, 
with developing countries making 80 percent reductions by that 
date.
    In terms of adaptation, the MEF declared that financial 
resources for mitigation and adaptation will need to be scaled 
up urgently and substantially, and should involve mobilizing 
resources to support developing countries. Yet the organization 
failed to make adequate financial or other resource 
commitments. As the Secretary General of the United Nations, 
Mr. Ban Ki-moon, said, ``The outcome was not sufficient.''
    According to the Congressional Research Service report that 
was submitted to the subcommittee for added information about 
the issue, there were several pledges made by certain leaders 
in the country. I believe it was Prime Minster Brown of England 
who suggested that $100 billion be allocated to address climate 
change to the vulnerable societies. Some of the NGOs suggested 
maybe $160 billion. China, the Group of 77, suggested that 1 
percent of the GDP of developed countries be provided. And the 
MEF stayed with the bottom line and said it was vague, not very 
clear in terms of what their commitments were.
    African states say there has got to be a direct coalition 
in discussing the issue with the members of the African states, 
and I note with interest that they emphasized the whole 
question that indigenous knowledge of climate changes in that 
continent has to be taken into account.
    And, of course, the sixth suggestion, as stated in H.R. 
2454, the Waxman-Markey legislation; I hope the members of the 
panel will also offer suggestions and maybe we can improve is 
my sincere hope.
    In the coming weeks, the chairman of the committee has 
announced that we definitely will be working on a 
reauthorization of the domestic assistance program and 
hopefully that maybe through that vehicle we may be able to 
offer some legislation based on the witnesses and whatever 
data, information they can have and that hopefully working 
closely with my ranking member we will be able to produce 
something that will be helpful, especially to those countries 
and regions that are most vulnerable when it comes to this 
subject matter.
    So, with that, I think I will submit the rest of my 
statement. It will be made part of the record.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Without objection, all statements made by 
witnesses this afternoon will also be made part of the record. 
At this time I would like to ask my ranking member for his 
opening statement.
    Mr. Manzullo. Well, I thank the chairman.
    There is a great story--Eni Faleomavaega has a lot of 
stories, and some of them are true. One of the great stories 
was in, I believe, 1993 or 1994, we were sitting on a panel at 
a hearing and somebody tried to justify the French detonation, 
underwater nuclear bomb somewhere near Mr. Faleomavaega's 
region. And this person went on to say that he didn't think 
there was any damage; there was no problem whatsoever. And the 
lone question that came from Congressman Faleomavaega was, 
well, what about the fish? And that was supposed to be funny. 
He can loosen up a bit because the fish were near the nuclear 
explosion, but no one seemed to count them.
    And what amazed me is that this bomb was detonated and 
there was very little----
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Manzullo. Yes.
    Mr. Faleomavaega. Because the French were kicked out of 
Algeria after conducting their initial nuclear testing at the 
expense of some 1 million Algerians who lost their lives in 
their fighting against French colonialism. So De Gaulle decided 
we will go somewhere else, not in France but to the South 
Pacific. And this is where they detonated 220 nuclear devices 
in the atmosphere, in the surface and under the ocean, that 
they did this for a 20-year period. As a result, over 10,000 
Tahitians were subjected to nuclear contamination because of 
this testing.
    Mr. Manzullo. And the latest test was as recently as 1994.
    Mr. Faleomavaega. In 1995, I was privileged to participate 
in a worldwide demonstration against the French Government when 
they broke the moratorium on nuclear tests, and they wanted to 
explode eight additional nuclear bombs for fear that their 
national security was at risk, given the fact that they had the 
fourth largest arsenal of nuclear weapons at that time.
    Mr. Manzullo. The reason I raised that is I thought it not 
amusing but pretty calloused that, in the explosion of this 
device, the witness actually said there was no damage; and, of 
course, you responded, what about the fish?
    Well, here we are, not that much later, France, of course, 
in the European Union; and they have tried a cap-and-trade 
system that is a miserable failure. And we just got back from 
northern Africa where the industries are delighted, all the way 
from Morocco over to Tunisia, that they can compete and sell 
manufactured goods to Europe because they are not bound by 
their cap-and-trade system. And even the cap-and-trade system 
itself is not counting much success.
    So what we have to do here is be extraordinarily careful. 
The issue is not climate change. The issue is global pollution. 
Climate change really only talks about what is emitted into the 
atmosphere and not what goes into the seas or what goes into 
the ground.
    I look upon this as a much broader topic, one that jumps 
over the issue, is there indeed climate change. But even that 
word has changed from global warming to climate change. But we 
don't have to agree on whether or not there is global warming 
or global cooling or climate change. That is not the issue. The 
issue is we should be doing everything reasonably that we can 
in order to stop global pollution. And that is where I fit into 
this equation and where the chairman and I may not necessarily 
agree on what is necessary to do that. The bottom line is we 
want to stop as much pollution as possible.
    I will submit my statement to the record.
    Before that I want to introduce Dr. Redmond Clark as my 
constituent from the Illinois 16th Congressional District. He 
is an expert on climate change and its impact on American 
businesses. He is an accomplished chief executive whose company 
produces a product that renders lead paint inert during 
sandblasting operations. He rode his bicycle all the way from 
northern Illinois to Washington, but he was planning on doing 
that anyway and did not do that especially in preparation of 
this hearing. But I think he brings something refreshing, 
Chairman. And perhaps you and I can join him or should join him 
in our exercising.
    [The prepared statement of Mr. Manzullo 
follows:]<greek-l>Manzullo statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I thank the gentleman for introducing Dr. 
Clark before the subcommittee.
    I will just say to our good friend from Illinois that, in 
fairness to France, the French just simply followed what we 
did. We decided to do our nuclear testing in the Marshall 
Islands, and then we detonated 67 nuclear weapons. The first 
hydrogen bomb that we exploded in the world was in the Marshall 
Islands. It was 15 megatons, which is about 1,300 times more 
powerful than the bombs we exploded in Nagasaki and Hiroshima.
    What prompted the government from not doing any more 
nuclear explosions in the Pacific was because the nuclear cloud 
carried Strontium-90 all the way to Minnesota and Wisconsin, 
and it was found in milk products. So we decided, no, let's go 
do it underground. And the poor State of Nevada now became the 
victim, where we detonated over 800, 900 nuclear bombs 
underground.
    And, of course, that adds on another issue of global 
pollution, about what do you do with nuclear waste? To this 
day, after spending billions and billions of dollars and 
building Yucca Mountain, to think that this is going to be the 
answer to solving the nuclear waste issue in our country--I 
just am not an expert on technical and scientific issues like 
this Congressman, but my suggestion or question is, how do you 
transfer nuclear waste from Tennessee or Georgia or all these 
other States to Nevada? By bus? By airplane? By train? By car? 
What happens if, in that one-in-a-million chance, that goes 
haywire? Maybe a terrorist group or maybe by accident, that 
nuclear waste goes out in the public.
    So this is where I think even in our own country we have 
some very serious issues that we have not addressed seriously 
and for the sake of Nevada's future and safety--and Nevada is 
simply saying, why us? It seems the most practical solution is, 
to every State, if you want to use nuclear technology to 
produce electricity, you take care of your waste. Why ship it 
to Nevada is my question.
    And if you and I were to live in Nevada I don't think we 
would appreciate having all the nuclear waste products coming 
from all different States and your State becoming the 
repository of something that is dangerous and lethal as nuclear 
waste.
    I'm sorry, I didn't mean to detract from your issue.
    But, to our friends here, I had the privilege of sailing on 
a Polynesian voyaging canoe without a sextant or modern 
navigation. We used it by traditional navigation. And it took 
us about 27 days to sail on a double-hull Polynesian canoe 
built by my Hawaiian cousins. And it was a real experience for 
me because I got to see the environment, the ocean, the air, 
the water.
    Let me tell you, there was a lot of pollution and things 
floating around in the ocean voyaging from Tahiti to Hawaii for 
some 27 days. And this was in 1987, Congressman. I suspect now 
it is even worse.
    As you said quite adequately, and I agree with you, maybe 
not necessarily just to suggest climate change but global 
pollution caused by man is something that we ought to also 
address seriously.
    So, for today, I do want to personally welcome and invite 
our distinguished panelists this afternoon for their 
testimonies.
    We have Dr. Thomas Karl, who received his bachelor's degree 
in meteorology from Northern Illinois University, master's 
degree from the University Wisconsin, and doctorate from North 
Carolina State.
    Dr. Karl is the director of NOAA's National Climatic Data 
Center in Asheville, North Carolina, and leads NOAA's Climate 
Services. He has served and continues to serve on a variety of 
National Research Council Committees and is a fellow of the 
American Meteorological Society, currently serving as 
president. He is also a fellow of the American Geophysical 
Union and the National Association of the National Research 
Council.
    Dr. Karl has authored many climate atlases and technical 
reports and has published over 150 peer-reviewed articles in 
various scientific journals. He has been named one of the most 
frequently cited earth scientists of the 1990s. His science 
focuses on climate, climate variability and climate change. He 
has served as editor and contributing author to a number of 
textbooks on topics ranging from the 1988 U.S. draught to 
climate and biodiversity, and currently chairs and is co-
editor-in-chief of the 2009 State of Knowledge Report by the 
United States Global Change Research Program and the Global 
Climate Change Impacts in the United States.
    Also with us is Mr. Kemal Dervis. Until February of this 
year, Mr. Dervis was the executive head of the United Nations 
Development Program and chairman of the United Nations 
Development Group, a committee consisting of the heads of the 
all U.N. funds, programs and departments working on development 
issues at the country level.
    In 2001 and 2002, as Minister of Economic Affairs and the 
Treasury in the Republic of Turkey, Mr. Dervis was responsible 
for launching Turkey's recovery program from the devastating 
financial crisis.
    A native of Turkey and the city of Istanbul, Mr. Dervis 
earned his bachelor's and master's degrees in economics from 
the London School of Economics and his doctorate from Princeton 
University. He also taught economics at Princeton and Middle 
Eastern Technical University before joining the World Bank, 
served a 22-year career in the World Bank and became vice 
president for the Middle East and North Africa in 1996 and also 
vice president for poverty reduction and economic management.
    And if anybody wants to share any languages with Mr. 
Dervis, he is fluent in English, Turkish, French, and German, 
and I suspect even Spanish.
    Dr. Anthony Janetos is director of the Joint Global Change 
Research Institute, a joint venture between the Pacific 
Northwest National Laboratory and the University of Maryland. 
He has many years experience in managing scientific and policy 
research programs in a variety of ecological and environmental 
topics: Pollution effects on forests, climate change impacts, 
land use change, ecosystem modeling, and the global carbon 
cycle. Dr. Janetos graduated magna cum laude from Harvard 
University with a bachelor's degree in biology, and earned both 
his master's and doctorate degrees in biology from Princeton 
University.
    Dr. David Wheeler is a senior fellow in the Center for 
Global Development, where he works on issues relating to 
climate change, natural resource conservation, African 
infrastructure development and the allocation of development 
aid. From 1993 to 2006, as the lead economist in the World 
Bank's Development Research Group, he directed a team that 
worked on environmental policy and research issues in 
collaboration with policymakers and academics in Latin America, 
in Southeast Asia, just about everywhere else in the world--and 
Africa as well. He also worked on priority setting for country 
lending, grants, and technical assistance with the World Bank's 
vice president for operations policy and country services.
    Dr. Wheeler completed his doctorate in economics at the 
Massachusetts Institute of Technology in 1974, taught for 2 
years also at the National University of Zaire in Kinshasa. 
And, again, a distinguished career of serving with the World 
Bank and has been a professor and also consulted with various 
institutes of economics as well; and we are very, happy to have 
Dr. Wheeler with us.
    Dr. Redmond Clark, I think you have already been introduced 
by my good friend from Illinois.
    At this time, I would like to ask Dr. Karl to begin our 
hearing this afternoon. Please, Dr. Karl.

 STATEMENT OF THOMAS KARL, PH.D., DIRECTOR, NATIONAL CLIMATIC 
 DATA CENTER, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Karl. Good afternoon, Chairman Faleomavaega, Ranking 
Member Manzullo. Thanks very much for inviting me to talk to 
you today regarding global climate change.
    It is now well established in scientific literature that 
our climate is changing and that humans are largely 
responsible. Additional changes are already assured because of 
the large amounts of heat that have already been absorbed by 
the ocean, long lifetimes of atmospheric carbon dioxide and 
other greenhouse gases in the atmosphere.
    Changes are already apparent around the globe. For example, 
last month, the United States Global Change Research Program 
released a NOAA-led report entitled Global Climate Change 
Impacts in the United States. The report provides concrete 
evidence that impacts are not only affecting the contiguous 
U.S. but other areas around the world, including the Pacific 
Islands and the Caribbean.
    Other scientific assessments have documented a variety of 
important changes, such as decreases in subtropical and 
tropical precipitation in Indonesia and southern Asia, 
increasing ocean acidity, and rising sea levels.
    The Fourth Assessment Report of the Intergovernmental Panel 
on Climate Change identifies coastal and small island 
communities like those in Asia and the Pacific region as 
particularly vulnerable to climate change and variability.
    I would like to highlight a few climate impacts for which 
observed and projected changes are relevant to Asia and the 
Pacific region. Water is an area in which the impacts of global 
climate change will be increasingly felt in small and large 
ways, including increased intensity of extreme precipitation 
events, and drought and changes in the quality and abundance of 
water resources.
    Asia is a region where water distribution is uneven and 
large areas are under water stress. Even in humid and sub humid 
areas of Asia, water scarcity is one of the constraints 
limiting sustainable development. Yet, at the same time, we are 
seeing evidence of increases in extreme precipitation events, a 
trend that is expected to grow around the world; and future 
projections include more dry days as the intensity of 
precipitation increases when it does actually rain.
    In India, Pakistan, Nepal, Bangladesh, water shortages have 
been attributed to rapid urbanization and inefficient water 
use. These are all aggravated by a changing climate. In 
subtropical regions, climate change is expected to reduce water 
resources on many small islands. By midcentury, these water 
resources may<greek-l>be deg. be insufficient to meet the 
growing demands during low rainfall periods.
    The oceans will feel projected impacts of global climate 
change, which, in turn, will have negative impacts on the most 
vulnerable societies. The oceans have absorbed approximately 
one-third of the human-produced carbon dioxide. This increased 
absorption has measurable impacts on ocean chemistry. One of 
these is increased acidification, which leads to the 
deterioration of and can contribute to the total collapse of 
coral reef ecosystems, especially when combined with coral 
bleaching due to high ocean temperatures and other human-caused 
stresses.
    In addition to the food, resources, and biodiversity that 
coral reefs provide, deterioration in coral reefs is expected 
to impact the value of these areas as tourist destinations as 
an important resource of income in some of the coastal areas in 
the Asia and Pacific Islands.
    Another impact on the world's oceans is sea level rise. Sea 
level rise is expected to amplify the effects of other coastal 
hazards. These include storm surge, Tsunami, and erosion, as 
well as the loss of fish and wildlife habitat.
    The reduction of fresh water availability due to saltwater 
intrusion, especially in low-lying areas, is another hazard 
facing many areas due to sea level rise.
    By the end of this century, sea level rise is projected to 
increase the annual number of people experiencing flooding in 
coastal populations from 13 million to 94 million; and this is 
likely to be an underestimate if contributions to sea level 
from the Greenland ice sheet grow as evidence today suggests. 
Almost 60 percent of the increase in affected costal 
populations will occur in south Asia and about 20 percent will 
occur in Southeast Asia.
    In addition to changes in the ocean over recent decades, 
there has been a general increase in duration of heat waves 
along with the increased intensity in rainfall. Additionally, 
these trends are expected to continue, along with increased 
year to year variability of the Asian summer monsoon. One 
impact of this variability and increase in temperature is 
increased water stress and lower production of rice, maze, and 
wheat in many parts of Asia during periods of monsoon failures.
    This climate change will be further impacted by existing 
climate variability phenomena such as El Nino and La Nina. We 
may soon have firsthand experience of this increased stress as 
in the summer of 2009 we are embarking on an El Nino episode. 
The world's ocean surface temperature was the warmest on record 
for June. NOAA is predicting a strengthening of El Nino over 
the coming months.
    In recognition of the climate challenges already facing 
many parts of the globe, NOAA has supported efforts to 
understand and predict environmental change. We are working to 
provide the tools that will allow for more effective management 
of resources impacted by climate change. For example, NOAA 
researchers are working with partners to understand how climate 
change is altering global ocean conditions. These conditions 
include water temperature, currents, upwelling, plankton 
blooms, and others. We seek to understand how these changes 
affect habitat range and abundance of economically important 
fish and protected species.
    In closing, climate change impacts across the globe are 
merging as serious challenges for virtually all nations, 
including our own. NOAA is taking action to assist in improving 
understanding and predicting of climate change and in providing 
information tools necessary to improve the management of these 
critical resources.
    Thank you very much for allowing me to testify today. NOAA 
looks forward to working with you as we address these 
challenges. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Karl 
follows:]<greek-l>Thomas Karl deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Karl.
    Mr. Dervis.

  STATEMENT OF MR. KEMAL DERVIS, VICE PRESIDENT AND DIRECTOR, 
 GLOBAL ECONOMY AND DEVELOPMENT, BROOKINGS INSTITUTION (FORMER 
      ADMINISTRATOR, UNITED NATIONS DEVELOPMENT PROGRAMME)

    Mr. Dervis. Chairman Faleomavaega, Ranking Member Manzullo, 
I really appreciate the opportunity to testify today on the 
subject from L'Aquila to Copenhagen: Climate Change and 
Vulnerable Societies. I hope this hearing serves as another 
signpost signaling America's critical role in supporting 
climate change adaptation in the world's most vulnerable 
communities and also in dealing with the broader environmental 
challenges we face, as mentioned by the ranking member.
    Let me just try to highlight a few I think important points 
in this overall debate, which is going to be intensified, of 
course, as the world's countries prepare for Copenhagen and as 
the United States prepares for Copenhagen.
    The first point I think is that it is true that we do know 
that climate change is happening. I think there is overwhelming 
scientific evidence to that effect. We heard Dr. Karl. It is 
also true that gas emissions--heat trapping gas emissions are 
playing a critical role.
    At the same time, I think it is fair to add there is still 
a lot of uncertainty on exactly how these processes work, how 
fast they take place, what the exact impact is on the climate 
and on various parts of the world.
    But here the point I would like to make is the fact that 
there is such uncertainty cannot be interpreted as allowing 
inaction. Uncertainty means, yes, we don't know exactly what is 
going to happen, but we do know that there is potentially 
catastrophic risk down the road. So in situations like that, I 
do believe that the wise course is to take insurance, to ensure 
the world and particularly, of course, also the United States 
against the potentially catastrophic impacts that may happen 
40, 80, 100 years from now.
    As we get more information from research and data, we can 
adjust the exact action we take. But, in the meantime, I do 
believe that action is urgent. So this is an overall reason I 
think why policy is so important and why action has become so 
urgent.
    The second point--and this is a point where I think this 
committee is concentrating on--is the fact that the most 
vulnerable, the poor societies in the world are hurt the most. 
I won't repeat what Dr. Karl already eloquently told us about 
agriculture, about ocean, chemistry, about water level, sea 
rise levels, and other factors that, unfortunately, impact 
those who are the least able to protect themselves. The poorest 
and most vulnerable countries are also those who contribute the 
least to the accumulation of greenhouse gases. So it is a 
particularly difficult ethical and political situation where 
those who have contributed historically the least and who are 
not contributing now because of the level of their GDP, the 
level of their development, are going to be those impacted 
soonest and with the greatest force.
    Therefore, helping them adapt, helping them control the 
impact of climate change is I think an imperative global need 
that is being increasingly recognized. The amount of resources 
needed are quite large. Estimates range into tens of billions 
of dollars a year.
    I think what makes these estimates particularly difficult 
is that it is not easy to separate climate adaptation needs 
from general development needs. Extreme climate events are much 
more frequent in parts of the world that are least developed, 
and even if there wasn't climate change there is a need to help 
these societies withstand the effects, such as the cyclones, 
for example, in Bangladesh and the devastating droughts that we 
have seen in Africa and other parts of the world. But climate 
change make these things worse, increases their frequency, 
increases their impact.
    I do believe, however, that it is important to approach the 
issue broadly and not to separate adaptation to climate change 
from the general fight against poverty, but to integrate these 
measures and the policy support the developed countries, the 
international organizations, and the United States provides 
into a framework that is about fighting poverty and where, 
within that fight against poverty, climate adaptation is one 
important component.
    The final point I would like to make relates to trade. I 
think it is very important that the effort against climate 
change, the effort to protect the world, to ensure the world is 
widely shared, that particularly the rapidly growing emerging 
market economies do participate in their own way in this 
effort. I do, therefore, understand sometimes the debates 
relating to trade and to the need to have an equal playing 
field. However, I think it is very, very important to realize 
that trade measures could hurt the poorest and the most 
vulnerable countries in very important ways, because trade 
rules cannot be discriminatory. So when thinking about trade 
policy, I think it is very, very important to keep in mind also 
the interest of the most vulnerable in the poorest countries.
    Thank you very much for allowing me to share my 
perspective.
    [The prepared statement of Mr. Dervis 
follows:]<greek-l>Kemal Dervis deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Dervis.
    Dr. Janetos.

  STATEMENT OF ANTHONY JANETOS, PH.D., DIRECTOR, JOINT GLOBAL 
     CHANGE RESEARCH INSTITUTE, PACIFIC NORTHWEST NATIONAL 
               LABORATORY, UNIVERSITY OF MARYLAND

    Mr. Janetos. Mr. Chairman and Mr. Manzullo, thank you for 
the opportunity to talk with you today.
    May I have the first slide, please?
    The IPCC Fourth Assessment Report was a milestone in terms 
of presenting our evolving knowledge of climate impacts. It 
provided documentation of literally thousands of impacts of 
climate change on natural resources, on coastal regions, on 
human health, on animal and plant species, and on agricultural 
productivity. Out of this report emerged a clear consensus that 
not only are we beginning to see the impact of long-term 
changes in the climate system but also that we expect such 
impacts to continue to grow in future decades, especially if 
greenhouse gas concentrations in the atmosphere continue to 
rise as they have been doing.
    As our scientific knowledge has continued to evolve. Since 
the IPCC report, many publications indicate, for example, that 
their projections of sea level rise may have been conservative, 
raising additional concerns for low-lying island nations, for 
coastal barrier islands in such parts of the world as our own 
southeast coast and Gulf regions. We now have a better 
appreciation of the challenges to marine and coastal resources 
presented by the acidification of the oceans, which inhibits 
the abilities of many organisms, including many species of 
corals, to form their calcium-carbonate-based exoskeletons that 
we notice from above.
    In addition, such reports as the U.S. Government's own 
assessment of the impacts of climate change on agriculture, 
land resources, water resources, and biodiversity indicate 
widespread current impacts on U.S. natural resources.
    The recent publication of the U.S. Global Change Research 
Program's report, Global Climate Change Impacts on the United 
States, demonstrates that concern over both observed and 
projected impacts extends to the transportation sector, to 
health and nutrition, to agricultural productivity, and to the 
energy sector, as well as impacts we already know well and 
natural resources.
    That report also begins to outline how some sectors and 
regions are responding to climate change as they develop their 
own adaptation strategies.
    Finally, IPCC and subsequent reports have convincingly 
demonstrated that while no nation or region of the world is 
immune from the impacts of changes in the climate system, there 
are systematic additional vulnerabilities in the developing 
world. And many, although not all, parts of the tropics and 
subtropics, the impact of even modest climate changes on 
agricultural productivity are expected to far outweigh those in 
the productive regions of the United States and Western Europe, 
for example. The influences of sea level rise in island nations 
are clearly more problematic than they are for us, although 
different regions of the U.S. clearly have different 
vulnerabilities than the overall national picture. Moreover, 
the supply of fresh water on many islands is clearly affected 
by rising sea level.
    What are some of the factors that determine vulnerabilities 
of natural resources and societies to changes in climate?
    There are many such factors. For the physical world, there 
are different characteristic responses, for example, in crop 
plants, both the increases in atmospheric concentrations of 
carbon dioxide and changes in temperature and rainfall. Even 
very common crops, such as corn, have characteristic times 
during the growing season where they are extraordinarily 
sensitive to high temperatures. We know about the major cereal 
crops in the temperate zones significantly more than we 
understand about most tropical crops, although rice is 
beginning to be particularly well understood.
    Societal vulnerabilities, though, are more complicated. Our 
current understanding indicates that there are a combination of 
both sensitivities and natural resources in the physical 
systems, but they also include economic well-being, the 
distribution of resources, human capital and knowledge, and 
access to resources that can be mobilized when impacts are 
beginning to be felt.
    In the IPCC, we began to analyze some of these factors and 
how they may change over time using research published by our 
own institute and that from other colleagues. What we find in 
such analyses are some general principles: Poorer countries 
are, in general, more vulnerable than richer, although within 
every country there are poorer regions and populations of 
people that are more vulnerable than the average. Countries in 
the tropics and subtropics have more apparent vulnerabilities 
than those in the northern temperate latitudes. Coastal 
regions, islands, and mountainous regions will suffer from more 
immediate impacts than other places.
    Perhaps the most important insight was the realization that 
the adaptive capacity of many countries, including our own, is 
not unlimited and that under scenarios of rapid and large 
climate change that capacity can be overwhelmed.
    How are people beginning to respond?
    We now see evidence of people beginning to respond by 
trying to adapt to change in large part because they feel they 
must, because we are beginning to experience impacts. There are 
challenges that continue to face us.
    In my own view, it is critically important to begin to 
develop adaptation strategies that take into account known 
sensitivities of natural resources and of transportation, 
energy, and health and to begin to institute programs to build 
resiliency in particularly vulnerable parts of the would. At 
the same time, it is crucial to begin collecting information on 
the cost and effectiveness of such different strategies. We 
have very little information, although the scientific community 
has been calling for this type of knowledge for well over a 
decade.
    As we need to begin to understand both this fundamental 
science and the economics of adaptation for our own resources, 
our own society, it is equally important that we begin to 
understand and assist countries less fortunate than our own. 
Several studies of the national security implications of 
climate change for the U.S. have concluded that severe climate 
impacts in the developing world could reduce our own security 
for many reasons. It has also been argued that countries such 
as the U.S. could dramatically improve our collective 
understanding of these features and that this knowledge could 
serve the developing world as well as ourselves, if applied 
appropriately.
    I will not pretend to offer prescriptions for success. It 
is clear that the policy process will have to wrestle with 
these observations and findings. But it is equally clear that 
adapting to changes in climate that cannot be avoided is an 
essential part of an overall strategy of response to climate 
change and that the most vulnerable parts of the world in 
general are those countries that are less fortunate than our 
own.
    Thank you; and I, too, will be happy to address any 
questions you may have.
    [The prepared statement of Mr. Janetos 
follows:]<greek-l>Anthony Janetos deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you.
    The chair apologizes. We had earlier a distinguished member 
of our subcommittee, Mr. Inglis, but I hope he will return for 
his questions.
    Dr. Wheeler.

 STATEMENT OF DAVID WHEELER, PH.D., SENIOR FELLOW, CENTER FOR 
                       GLOBAL DEVELOPMENT

    Mr. Wheeler. Thank you, Chairman Faleomavaega and 
Congressman Manzullo.
    Today, I am going to talk about climate change, but I have 
spent 15 years in the World Bank worrying about pollution all 
over the world. So if you have some questions about that, I 
would be happy to entertain those. And I should say as well, if 
you would like to talk Husky football, we can talk afterwards. 
My brother Bob worked at Northern for 20 years, so I know the 
situation there pretty well. We seem to have a northern 
Illinois nexus.
    Mr. Faleomavaega. Is this Husky with the University of 
Washington?
    Mr. Wheeler. Northern Illinois. It is a little different. 
You can talk to the Congressman about that.
    Mr. Faleomavaega. I was just curious. I thought maybe there 
was only one Husky team. Several of my relatives played for the 
University of Washington Huskies.
    Mr. Wheeler. What I thought I would mention here very 
briefly today follows what Tony said about the national 
security of the United States. I thought I would take as my 
keynote Senator Lugar's remarks yesterday. He really said we 
should think of the foreign assistance problem and climate 
change as evoking real national security problems in the United 
States, and so I want to offer a perspective on that.
    There really are two aspects, both of which have been 
mentioned. One is the potential impact of climate change on the 
United States. The other is, obviously, the potentially 
horrific impact on developing countries; and that may well have 
implications for our security. So both are very important, I 
think, about the context of U.S. foreign assistance.
    I would like to make an assertion here today and then back 
it up for a few minutes, and that is, in the confrontational 
climate change worldwide the struggle is going to be won or 
lost in the developing world. There are really two reasons for 
that. One has to do with sort of what we might call a direct 
defense of the United States against climate change and the 
other has to do with indirect defense through impacts in the 
developing world.
    But, directly, we have got this problem. There is no doubt 
that climate change is going to impact the United States 
severely. But there is also very little doubt, when you look at 
the record, that emissions in developing countries are growing 
so quickly now. They have already surpassed emissions from 
developed countries year by year; and by the year 2030, they 
will probably match emissions from developed countries as a 
source of global warming.
    So the bottom line here is we won't solve this problem 
without addressing the emissions problem in developing 
countries. Critical.
    Now how do we do that? There are really two ways to address 
it. One is leveling up by taking punitive measures, trade 
sanctions, other approaches that would penalize countries that 
continue to emit carbon without restriction while we restrict 
ourselves.
    My own view is that that is going to backfire. It is not a 
smart policy. Because we are trying over time to foster 
development in the world. We are trying to foster good 
relations with developing countries for the sake of our own 
security and for the sake of world prosperity. If we enact a 
number of measures like that in the face of the fact that 
developing countries really can't afford a lot of measures in 
the nearer term to finance a rapid transition of low carbon 
growth, we are basically going to build a backfire that we are 
going to regret.
    I think there is another approach which is smarter and more 
targeted, and it is being discussed in the context now of the 
legislation in Congress. The Waxman-Markey bill includes 
features of both aspects of this. One is promoting the spread 
of clean technology in developing countries to targeted 
subsidies. There is a lot to be said about that. I won't dwell 
on it now, but I think there is a lot of room there for 
progress. About $1 billion has been targeted on that by the 
bill through offsets and direct measures, and the 
administration has suggested $400 million be spent through the 
Global Clean Technology Fund at the World Bank for that. I 
think it is a start. It is probably not sufficient. One could 
talk about that further.
    The other dimension is deforestation. People in poorer 
countries are deforesting because the land is worth more in 
other uses. Now the U.N. Has finally realized that if we are 
going to stop that we will have to pay people to keep these 
lands and forests, but that leads to a host of questions about 
how to administer that and pay for it.
    Again, in the Waxman-Markey bill, about $1 billion has been 
allocated for the purpose through offsets. I think that is 
probably not sufficient, but it is at least a start.
    But in the final analysis here, the real issue I think for 
the United States in sustainability and taxpayer support is 
going to be monitoring these arrangements. Here is a real 
opportunity for American leadership. It is our ethic to be 
transparent. We have the technological capability to monitor. I 
think the U.S. should step up and take the lead in the world 
movement for public disclosure emissions from deforestation and 
from industrial sources accessible to all as a way of making 
sure that when accords are reached they can be monitored 
effectively. Otherwise, I am afraid credibility will suffer.
    Let me say a quick word about adaptation and vulnerability. 
As my colleagues have said, there is very little doubt that the 
impacts will be severe.
    I think there are two aspects of the problem that are 
really critical for foreign assistance. One I might call an 
application of the 80/20 rule. You know that. It says usually 
20 percent of the sources of a problem are accountable for 80 
percent of the problem. Here it is more like a 90/10 rule. If 
you look at the impacts that we anticipate for climate change 
in the developing world, they are going to be very focused on a 
few unfortunate places. It is true for sea level rise, and it 
is also true for bad weather. There is really a 
disproportionality here. If we are going to do assistance, we 
need to target it if we are going to be effective. We need at 
this look very carefully.
    Having worked at the World Bank for a long time, I can tell 
you it goes against the grain to target instead of spreading 
aid around, but we will not have enough resources here to 
dissipate the money. We really need to think carefully about 
where these problems are going to hit and what we can do.
    Secondly, in the domain of uncertainty, as my friend Kemal 
said, I think we have got a real opportunity here. If you look 
at the history of confrontation with climate variability in the 
past, this is not new. There have been numberless tragedies in 
developing countries involving climate events, droughts, 
floods, thousands of people killed, millions of people 
affected.
    Question: Which countries have confronted this most 
effectively among developing countries? There is very little 
doubt about the answer. It is countries that have focused on 
developing their economic and human resources.
    Let me put the plus here on human resources. If you 
actually look at the evidence, it is quite remarkable how much 
better on the resilience front countries do if they have 
focused on empowering and educating women. There are lots of 
reasons why that is true. There is a very important kind of 
nexus here.
    So, in closing, I guess I would say, even if you are a 
climate sceptic and even if climate change itself is secondary 
for you, but you are really interested in promoting development 
of other countries, it seems to me a win-win here could be 
found in empowering and educating women. That would have 
benefits on both sides.
    [The prepared statement of Mr. Wheeler 
follows:]<greek-l>David Wheeler deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Dr. Wheeler.
    I would like to turn the time to my colleague for a better 
introduction of Dr. Clark. I think I failed in that regard, 
too.
    Mr. Manzullo. That is okay, Chairman.
    It is my pleasure to introduce my constituent, Dr. Redmond 
Clark. He is the current CEO of CBL Industrial Services. It is 
a firm that provides environmental products and services to 
domestic and international manufacturing companies, including 
the iron and steel industry, metal smelting, iron and steel 
recycling, et cetera. He has a Ph.D. In environmental sciences, 
with a specialization in climate change impacts modeling. He 
brings a unique perspective to our panel today; and thank you, 
Mr. Chairman, for allowing us to bring him in.
    Mr. Faleomavaega. No problem.
    Please, Dr. Clark, proceed.

STATEMENT OF REDMOND CLARK, PH.D., CHIEF EXECUTIVE OFFICER, CBL 
                      INDUSTRIAL SERVICES

    Mr. Clark. Thank you.
    I have to mention that I did my graduate work at Southern 
Illinois University, which is the home of the Salukis, which 
are actually the best football team in the State of Illinois, 
the running dogs, as they say in Illinois.
    At any rate, have that on the record, please.
    Mr. Faleomavaega. Saluki, is that an Indian tribe?
    Mr. Clark. It is an ugly dog that runs fast.
    We come at these issues from a different standpoint. I 
greatly appreciate the opportunity to speak today.
    As a corporation, we are a foot soldier in the area of 
implementation. We are the people that go out and attempt to 
actually find processes that work to solve problems. That is 
what we do. And so when we work through all of these policies, 
the government will steer, policy will steer, treaties will 
limit, regulations will limit and impact our markets. But, at 
the end of the day, we will be responsible for developing the 
markets that solve the problems that we are trying to address. 
We are extraordinarily focused on that in our business, and we 
try to look strategically ahead and understand what is coming, 
not only so we can steer our company but so that we can 
anticipate the problems that are before us.
    I have a long personal history in natural hazards modeling 
response management, and I agree with a number of things that 
have been said today. So rather than going through the details 
of my presentation, I will speak somewhat contemporaneously 
about some of the thoughts that we bring.
    This treaty is an important treaty because it is going to 
reshape economies in some very significant ways. We are 
proposing to make the developing nations low carbon developing 
societies. We really don't know how to do that. We know how to 
get part of the way there, but we didn't know the rest way. 
This will be a leap of faith for all of us.
    The developing nations, as has been previously indicated, 
they are vulnerable to climate change. They are very sensitive 
to climate treaty. Politically, they have got to provide for 
their citizens. They have to provide economic opportunity for 
them, and it will be harder to do it if they cannot gain access 
to energy. They know that if they have access to carbon fuels, 
cheap carbon fuels in large quantities, they have a better 
opportunity to bring their citizens forward and live the kind 
of life that they see experienced in the developed nations.
    At the same time, the developing nations are straining 
their ecosystems in a number of different ways. There are 
incredible challenges out there. We don't see how they will be 
resolved in this next treaty cycle, and it is a great challenge 
with the negotiators to come up with something that will work.
    China is acting now on a political agenda. They are moving 
forward with a number of different things that we see that 
represent significant issues for us and for some of the other 
companies that we work with. A sitting government believes the 
economy has to grow at a 10-percent rate. That means that they 
are going to have to continue to push large quantities of 
energy into their industrial operations in order to continue in 
that growth curve. They are doing so because they have got 400 
million people that are in disparate poverty. They do not feel 
that they are free to simply choose to step back from that 
growth agenda. They have got to take care of these people, or 
it is going to destabilize the government.
    India is on a slower track, but they are moving in some of 
the same directions. And with 2.2 or 2.3 billion people between 
the countries, that means everything in terms of global and 
environmental security.
    China has decentralized a lot of their decision-making 
process. It is going to be a lot harder to negotiate with them 
now, but we will speak on that in a moment. Neither of them 
want to play at Copenhagen. We understand that, and we 
understand their initial positions have been very clearly put 
out in the press. They are not going to agree to any carbon 
caps, and our lead negotiator has indicated he doesn't expect 
that China will agree to a carbon cap going in. Again, we think 
that is being driven by their political situation at home.
    Now, in terms of key trends and developments, I haven't got 
enough time to look deeply into the energy markets. I will just 
simply say there has been a crash in investment in the carbon 
fuels industry across the world, and although oil and natural 
gas are plentiful right now, we expect that there are going to 
be some major price shocks coming at us over the next 5-7 
years. Coal is holding its own in part because there is so much 
growth and external demand or international demand for coal as 
a secure energy source.
    China is buying up massive quantities of energy resources 
or rights to energy resources. We estimate that China has 
purchased approximately 20 percent of the excess oil and gas 
production capacity of the world over the past 6 months, and 
they are continuing to purchase enormous assets in that area.
    Now, in the past they have historically made that energy 
available outside of their country in normal markets in order 
to maximize return on their investment, but if we run into a 
period of shortages because of what has happened in response to 
the economic downturn, what we are going to end up with here is 
a situation where China has the ability to steer large 
quantities of energy resources away from other developing 
nations, away from the developed nations and into their own 
economy.
    If we as developed nations agree to cuts, and we do not ask 
the developing nations to participate, we are going to 
stimulate trade war. There is one going on right now. It is 
going to become more pronounced over time.
    I am out of time here, I can't go through detailed examples 
here, but there are plenty of examples here in the U.S. where 
whole industries are going to disappear simply because we 
create enough of an energy gradient that we will invite 
extranational competition into our markets.
    China is also expanding their energy-intensive 
infrastructure. They are hardwired now the way their economy is 
set up to continue to build, and they are going to continue to 
burn more and more carbon. They need it in order to grow their 
economy. India is following along that same path. The developed 
nations want to step back from that precipice, and here we are. 
The ramifications of these decisions are going to show up in 
all kinds of impacts in a number of different areas.
    So, what do we do? What do we do when we step forward in 
these negotiations? And I think it was Dr. Wheeler who 
indicated that he thought taking a hard line was probably a 
mistake. My suggestion is that I would agree with him. We need 
to speak softly, but I think we also need to have a very large 
stick present in our back pocket should we need to use it, and 
I think trade restriction is, in fact, one of the major issues 
that we are going to have to have a serious discussion about. 
Maybe Dr. Wheeler and I can have a serious discussion at dinner 
afterwards and get busy about our football teams as well.
    But our feeling is that if we are going to go into these 
negotiations, very simply we need carbon fuel reduction 
agreements from all of the key players, including the 
developing nations, whether it is a reduction in rate sector 
agreements, whatever. No financial support for mitigation 
without these agreements. Technology transfer, absolutely. I 
think it is critical. But there has got to be a quid pro quo, 
and that is an honoring of intellectual property rights by the 
developing nations. And, of course, the issue of carbon 
trading, I think, is open, and it is an effective mechanism 
that could be used to help make these things happen.
    One last thought: We need metrics and transparency, of 
course, but when I was a relatively young man, we formed FEMA 
here in the United States, and one of the important lessons 
that FEMA learned was you don't throw good money after bad. You 
don't keep bailing people out over and over and over again so 
that they can return to the same floodplain, build their homes 
and get flooded out again.
    The mitigation process we came up with was we will invest, 
but we will invest as we address the problem, not before we 
address the problem. And I think the precursor to significant 
gives on the part of the developed nations for the developing 
nations is a carbon agreement that is going to limit 
consumption by the developing as well as by the developed 
nations.
    Thank you. I will be happy to answer questions.
    Mr. Faleomavaega. Thank you, Dr. Clark.
    [The prepared statement of Mr. Clark 
follows:]<greek-l>Redmond Clark deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Congressman Manzullo, first questions.
    Mr. Manzullo. First of all, Chairman, I would like 
permission to put into the record this article from the Wall 
Street Journal dated July 20th, ``India Rejects U.S. Proposal 
of Carbon Limits.''
    Mr. Faleomavaega. Without objection.
    Mr. Manzullo. Thank you.
    [The information referred to follows:]<greek-l>WSJ 
Article deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Manzullo. I was watching a special, I think it was 
National Geographic, about Greenland, and the Danes settled the 
land because of its lush environment, an area to grow crops, 
but then they left, most of them left, about 1,000 years ago 
because the area, instead of being warm and lush, took on 
almost an ice cap. It became the Greenland that we have known 
until recently.
    Now, the reason I bring that up is we are all concerned 
about what is going on in the environment. The question is, 
there were no greenhouse gases 1,000 years ago that made the 
Danes abandon that area. So what caused the massive cooling 
1,000 years ago, and is what climate change we are experiencing 
now, is it necessarily related to what we are doing on the 
Earth, or is it just something that occurs naturally? Anybody?
    Mr. Karl. I will be happy to take that one.
    It is clear that there are natural variations in climate, 
and particularly on a regional scale, such as the one you just 
identified.
    The issue of whether humans are responsible for the changes 
that we have seen over the last 50 years, there is no question 
any longer. We have been able to look at, observe changes, and 
link them quite convincingly to the patterns of changes we have 
seen not only in temperatures, but changes in precipitation, 
changes in water vapor, changes in atmospheric circulation. 
They all put together a comprehensive picture of human-induced 
climate change.
    Now, that doesn't negate the fact that climate can change 
on its own due to natural purposes; however, what we are seeing 
today is clearly linked to human activities, and the 
projections for the future are such that with unabated 
increases in greenhouse gases, the rate of changes that we are 
expecting over the course of this century are beyond anything 
that we have seen in human mankind civilization. These changes, 
in fact, will have some really significant impacts, one of 
which our civilization hasn't yet been able to address, hasn't 
had to address.
    Mr. Manzullo. Anybody else agree, disagree, or want to 
comment on that?
    Dr. Clark?
    Mr. Clark. In trying to translate the science into 
something that people can use, we came up with an analogy that 
may not be completely fair. If you go to Las Vegas and you sit 
down at the blackjack table and you play 20 hands, it is 
possible that you can win 20 hands in a row. The odds are very 
long, but it is possible you can win 20 hands in a row. If they 
changed the rules so that the dealer takes ties, then it is a 
lot harder for you to win 20 games in a row. The odds just went 
up.
    The climate science work that has been done, it makes a 
very, very serious effort to use best possible data to come up 
with an estimate of how much we are changing the odds, and the 
work that has been done says that we have changed the odds.
    Your point, which is that there is a natural environment 
fluctuating underneath, is absolutely correct. We have seen 
similar changes in temperature in similar periods of time in 
regions all over the world at varying times in their history. 
As this extends on, we are going to have progressively more and 
more data to determine just how precise we were right or how 
precise we were wrong in the forecasts that we put together.
    My sense right now--and this is an important political 
distinction--my sense right now is that, for example, as far as 
the House is concerned, the House has made a determination that 
they are going to accept the science, and if we accept that and 
we run down that policy corridor, what does it mean? And as we 
drive down that policy corridor, from my personal perspective, 
many, many issues that we have talked about, differences 
between nations, are going to be forced up, and they are going 
to be discussed, and they are going to have to be resolved. 
Things like intellectual property, the issues are going to be 
driven by the climate science, because climate science is going 
to force an economic debate that is going to be healthy, I 
think ultimately, for the world, and I think very healthy for 
the United States.
    But we have got to have that debate, and when we have that 
debate, I suspect it needs to be less about the science and 
more about the economic follow-through that comes from the 
scientific argument that has been made. And it is a very 
important distinction. Hopefully it is helpful.
    Mr. Manzullo. Dr. Wheeler?
    Mr. Wheeler. Just one comment, I guess. Personally I am 
convinced that we have a problem, that there is a human origin 
to that problem, so for me that is not really the issue.
    But I think there is a more fundamental issue here, and the 
way one can address this might circumvent the disagreement, And 
that is we all agree there is a lot of uncertainty here, and 
there are differing opinions about where climate change will 
impact and how much. And the science is not yet certain, for 
example, on the pattern of rainfall that we may expect over 
large areas of the world. So it is very difficult to plan ahead 
in agricultural policy, for example.
    But what we do need is resilience, and what we have seen in 
the past is that societies that have made certain policy-
progressive moves have become more resilient. So there is force 
in that, and if we can orient our policies toward promoting 
resilience, regardless of climate change, we can only help on 
the climate front, and at the same time we can benefit from a 
standard development perspective.
    So I think there is an enormous common agenda here that can 
be promoted progressively without even referring to the onset 
of climate change, simply as a confrontation to the problems 
that the world is facing right now. So I would urge that, 
wherever possible, we seek this common ground and take measures 
that are progressive from either perspective.
    Mr. Manzullo. Thank you.
    Mr. Faleomavaega. Mr. Dervis?
    Mr. Dervis. Thank you. I just wanted to add one more time 
the issue of uncertainty and insurance. Professor Scott 
Barrett, a colleague who is going to teach at Columbia next 
year, makes this kind of comparison. Suppose we were told there 
is a 5-percent probability of a meteor hitting the Earth and 
destroying most of it, but a 95-percent probability it won't 
happen. What would we do? That is an extreme example. There is 
a lot of uncertainty, but there is enough of a threat, of a 
possible threat, that I think very serious action should be 
taken as insurance, without necessarily being sure of how 
things will evolve over time.
    Of course, taking that action requires a global effort and 
that is where, I think, we all agree; if the United States 
takes action and others don't, it won't help. If China takes 
action and the United States doesn't, it won't help either. So 
how to do that globally is going to be increasingly at the 
center of the debate.
    Mr. Faleomavaega. We will have Dr. Wheeler, and then Dr. 
Clark.
    Mr. Wheeler. In thinking about China and India and their 
stance in negotiations, from many conversations I have had with 
colleagues in the international community who are working in 
China and in India and here, I would urge the committee and the 
Congress to look carefully at what our friends in those 
countries are doing as opposed to what they may be saying in 
the run up to Copenhagen, because the measures that they are 
actually taking are consequential for renewable energy and for 
climate change, and in some places quite major.
    The Chinese arguably right now are moving more quickly to 
develop renewable energy than we are. It is just they are 
moving their energy systems so quickly that they are also 
increasing their use of coal-fired power. But their increased 
use of wind power and solar power is quite spectacular.
    On the Indian front, we look at the question of 
intellectual property. I would simply cite a recent arrangement 
between eSolar, which is a U.S. Company, and the Acme Group in 
India to develop solar thermal power in Rajasthan, in the 
desert, possibly without any subsidies at all as a business 
venture. That is going forward. Both sides have agreed to it. 
The Indian Government likes the idea. They may provide some 
subsidies for that because they see solar as an important 
potential part of India's future.
    So I hope we won't be too bamboozled by some of the 
rhetoric running up to Copenhagen here. There are threads of 
common interest in the world. There are ways in which we can 
target our assistance progressively on measures that would 
assist countries to do what they are intending to do anyway 
better.
    Mr. Clark. One last quick thought, and that is the meteor 
that is approaching us is not just climate change, whether you 
agree or disagree with the science. The meteor that is 
approaching us is the cost and the availability of the energy 
resources that we use to drive the world economy. It is 
changing. We are seeing dramatic changes now, and there are 
significant changes in the future as an economic and 
environmental challenge.
    Again, I think Dr. Wheeler and I are close together in our 
thoughts. Watch very carefully what they are doing rather than 
just listening to the rhetoric, because, again, what we see in 
terms of activity are people that are preparing for a conflict 
of sorts, and that needs to be incorporated into our 
negotiating stance.
    Thank you.
    Mr. Faleomavaega. As I remember, 8 years ago we had then 
former Secretary of State Colin Powell appear before this very 
committee, and one of the issues that I raised with him was the 
Kyoto Protocol, climate change, and obviously the tremendous 
impact that will have, especially among the most vulnerable 
societies or countries, like Pacific island country atolls. As 
I recall, he said, well, he has every intention to take up the 
issue, follow up on what the previous administration, President 
Clinton, had done; not necessarily to agree with everything 
that was signed in the Kyoto Protocol.
    But quite obviously the Bush administration, at least it 
was submitted to the Senate, and the Senate killed the Kyoto 
Protocol Treaty by 95-0, I believe. And I supported that, 
because it was very unfair, one-sided, and it put the United 
States in a very, I think, unequal level playing field when you 
compare it to China, India and other countries about emissions.
    But the next thing that transpired, about 2 months later, 
was the White House response was to have nothing to do with the 
Kyoto Protocol. And I think this is where I have a little 
difficulty in agreeing to the administration's then policy, 
which was just to completely take ourselves off the table and 
not to continue the negotiation process and letting the Kyoto 
Protocol members know we have some problems with it.
    We completely left ourselves from participating. I think 
the saying is that if you are not at the table, you will be on 
the menu. Well, for 8 years, I think we have been lambasted, 
ridiculed, criticized as anti-global warming or climate change. 
Just to examine the contents, whether it is the science that we 
disagree with or the unequalness of distribution of whatever 
resources, that we were to address the problem.
    So now, Johnny-come-lately, 8 years later, the new 
administration comes up and says we do definitely look at 
climate change as a very serious issue and a very top priority 
by this administration.
    My question to you gentleman, of course, we are taking the 
sense now we are the leader of the world, and without us, 
nothing moves. Well, if you were among the group of 77 
countries, or however number, 100, whatever, that signed on to 
the Kyoto Protocol, that for the last 8 years they have been 
delivering, they have been discussing, they have been debating 
the issues. How do you expect the reaction from other countries 
that say, where have you been?
    So India and China make their point of all the years that 
they have discussed it with the Russians, whatever, the other 
countries. And we are coming and saying, do what we want you to 
do, because we know, we have the best scientists, we know the 
best way to solve the problem.
    So far the point of reference now by this country, our 
country, is the Waxman-Markey bill as the first piece of 
legislation that is addressing the very issue of climate 
change. And as all of you eloquently pointed out, there is 
going to be some sparks flying in Copenhagen.
    You take the view that countries like India and China don't 
consider themselves up to par with Japan, the United States or 
the European countries as far as development is concerned; they 
feel that they are still below standard. I know we make a lot 
of comments about the economic rise of China, and also India, 
but when you compare relatively, and I am not an economist, we 
are still very much ahead of the ball compared to these two 
countries, other than the fact they have tremendous 
populations. And I think that alone seems to be the driving 
force as to why they think that they ought to be given 
different treatment in Copenhagen, or they just won't play.
    Here the question is without these three countries, that I 
suspect, in my own humble opinion, without China and India's 
involvement, with whatever we want to propose in Copenhagen, I 
think we are going to have a very difficult problem here in 
resolving.
    I have 100 other questions, but before doing this, I do 
want to introduce my dear friend Dr. Watson, the gentlelady 
from California, our former Ambassador to the Federated States 
of Micronesia, who is also one of the senior members of our 
subcommittee and an expert on Pacific issues. I welcome her to 
our hearing this afternoon and would like to have her give an 
opening statement, if she would like.
    Ms. Watson. Certainly. Sorry to be late. Thank you, Mr. 
Chairman, for holding this very timely hearing on climate 
change as the climate conference in Copenhagen draws near.
    As we all know, President Obama recently completed his 
meeting with the G-8 in Italy to discuss climate change, and 
though the group made progress, notably pleading $20 million--
pledging $20 billion in food aid and to prevent a dangerous 
increase in global temperature, the most vulnerable 
populations, those who are poor and have limited options, will 
feel the most repercussions from climate disasters. The floods 
will destroy their homes, droughts will destroy their farms, 
and changes in ocean temperature will destroy their fishing 
businesses.
    Thus, as we begin to address the issues, we must keep in 
mind that climate change is not about just saving the polar 
bears or the Arctic rabbits and majestic Narwahls. Humans will 
face many challenges in the coming years. Food, economic 
productivity and infrastructure will all be negatively affected 
by an increase in global temperature.
    I hope that all of our panelists--and I am sorry to have 
missed probably the first panel--but our panelists can 
enlighten us on the strides being made to make developing 
nations more capable of responding to natural disasters caused 
by climate change.
    There are some among us, Mr. Chairman, as you know, who 
don't believe that climate change is among us, but all they 
need to do is go up to the Arctic and see that our polar bears 
really are disappearing. Their babies cannot find food, and 
pretty soon we will find that they, too, are extinct.
    So I really appreciate this, and I yield back the balance 
of my time and want to listen to our witnesses at this point. 
Thank you.
    Mr. Faleomavaega. I thank the gentlelady for her comments 
and her opening statement.
    [The prepared statement of Ms. Watson 
follows:]<greek-l>Watson statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I just wanted to follow up a little bit 
on what my friend from Illinois had raised concerning 
Greenland.
    I think maybe some of you are experts on geography or 
topography. I have always looked at Greenland as a huge 
continent, seemingly. And just recently, if I read the media 
reports, that Denmark has finally given sovereignty back to the 
indigenous Inuit Eskimos, who number only 65,000 people through 
the whole country of Greenland. I think it was probably the 
same National Geographic television show that Mr. Manzullo and 
I watched, and the fact that in the 20-, 30- or 50-year period, 
there have been definite indications of meltdown of the 
glaciers in Greenland as an indication that there definitely is 
an impact or changes in the climate as far as this goes.
    Ms. Watson. Mr. Chairman, would you yield?
    Mr. Faleomavaega. I am glad to yield to the gentlelady.
    Ms. Watson. Dennis Kucinich was putting a trip to Greenland 
together, and two people dropped out; therefore he couldn't get 
the military plane. I think we ought to all come together and 
just take a very quick trip to Greenland so we can visually 
attest to what climate change is bringing about. So, you know, 
he would be ready to put it back together again if members of 
our committee or subcommittee would agree to go.
    Mr. Faleomavaega. I would say to the gentlelady, I would 
gladly accept an invitation to go to Greenland, even though I 
am a warm-bodied Polynesian, warm-water Pacific blue. I just 
don't want to freeze there in a matter of minutes. If you are 
exposed to the water in that part of the world, in less than 30 
minutes, you will be dead. I think I would rather swim in the 
Pacific Ocean.
    Ms. Watson. He had on his itinerary where we are going and 
the need for very warm clothes and the fact that we would be 
well protected from the cold. It was a very well-laid-out trip.
    Mr. Faleomavaega. Definitely you will not have polar bear 
skins to clothe yourself with; is that correct? I am just 
kidding.
    I think Mr. Dervis wanted to comment on your opening 
statement.
    Mr. Dervis. Thank you very much, Mr. Chairman and 
distinguished members.
    I just wanted to stress two points in response to the 
comments. One is that the climate, the global climate, is this 
common good we have, and it will be terribly sad if it led to 
conflict rather than cooperation. In a way it is the ultimate 
global good, you know. If you don't like globalization, you 
could possibly close your borders to trade, or you could 
possibly not accept foreign investment. But even if every 
country closed their borders, the emissions, the heat-trapping 
gases would still operate, and the climate change would affect 
everybody. So it is something that the whole of humanity 
shares.
    And in the discussions and debates, which will be tough, 
there will be different interests, different countries will 
argue for resources. Some countries will say there should be 
equal per capita, per-human-being emissions; others will argue 
per dollar. All these things can be argued about.
    But I think it is extremely important that the world 
embarks on this in a spirit of cooperation and in discussing 
and arguing rather than engaging in conflict. And I think 
Copenhagen is a great opportunity, and the fact that the United 
States is taking a strong role now and is fully participating 
is really welcomed by everybody around the world. That is one 
important point I wanted to make.
    The second point, following on David Wheeler's, we have 
examples of adaptation of climate-proofing actions in the 
poorest and most vulnerable countries that have actually worked 
reasonably well. One example I know is Bangladesh and the 
cyclones. I can't remember the exact date, but I think it was 
about 12 years ago there was a devastating cyclone in 
Bangladesh, and more than 100,000 people were killed. There was 
another one 3 years ago. In the meantime, in cooperation with 
many countries and also the United Nations Development Program, 
Bangladesh had taken measures, early warning systems, a plan 
what to do when it happened, what to do with people, who would 
take care of whom.
    It was still devastating. It was about of equal strength, 
but instead of more than 100,000 people dying, I think less 
than 6,000 died, which is still a huge number, of course, but 
it shows the kind of progress Bangladesh was able to make with 
international assistance.
    So it is important to focus on the positive. It is 
important, I think, to realize that we can build more resilient 
systems, and that that is part of the overall development 
effort.
    Thank you.
    Mr. Faleomavaega. I appreciate, Mr. Dervis, your more 
positive attitude toward the region. I think it is possible to 
resolve these issues and not in gloom and dire inability on the 
part of humanity and the countries to adapt and to raise or to 
resolve some of the issues that have been raised in this 
hearing.
    I think Dr. Janetos and Dr. Wheeler may have some comments.
    Mr. Janetos. Thank you, Mr. Chairman. I would like to build 
on Mr. Dervis' comments.
    In our own research programs at the Joint Institute, we 
have done a significant amount of modeling of the energy 
economy and the prospects for global emissions as they relate 
to the spread of energy technologies and end-use efficiency and 
a whole range of different actions.
    One conclusion of those studies from some of our sister 
colleagues is the importance of joint actions to reach 
particular emissions and concentration targets, that no one 
country or even large groups of countries can hope to act on 
their own and reach success; that this is, in fact, a problem 
of common action.
    It is also important to recognize that many of the nations 
we have mentioned this afternoon also have significant 
vulnerabilities themselves. They know this, of course.
    I have been fortunate to participate as an adviser, for 
example, in a very large environmental assessment of the 
provinces, the western provinces in China, and the 
environmental concerns and challenges they face there are 
severe, ranging from poor soil fertility to increasingly arid 
regions and a dramatic reduction in the amount of freshwater 
they are able to access. So they face this tremendous dilemma: 
How do they continue to satisfy their increasing and legitimate 
demands for energy and growth while building the resilience 
they need to combat climate change and its consequences as they 
continue to occur?
    At the end of the day, perhaps here are the elements of 
common purpose and common goals that we may seek to exploit.
    Mr. Faleomavaega. Let me share with you, just before I get 
to Dr. Wheeler, the Congressional Research Service made this 
overview for the members of the subcommittee, and I just want 
to share with the members of the panel for your comment.

          ``Little dispute remains in peer-reviewed scientific 
        literature that greenhouse gas concentrations in the 
        atmosphere increase global average temperatures, and 
        that most of the observed warming since the late 1970s 
        is very likely due mostly to human-related increases in 
        greenhouse gas concentrations. Between 1970 and 2004, 
        carbon dioxide emissions grew by about 80 percent, 
        according to the Intergovernmental Panel on Climate 
        Change, or IPCC. Scientists also agree that natural 
        forces, such as solar irradiance and volcanoes, 
        contribute to climate variability, as they have 
        throughout history. Scientists, however, have been 
        unable to show that natural forces alone could have 
        driven recent warming and additional climate change 
        patterns. That is, climate models can reproduce 
        patterns of recent climate change only when they 
        include the effects of greenhouse gas emissions from 
        fossil fuel use, land clearing and some agricultural 
        and industrial processes.
          ``Little scientific dispute remains over the 
        greenhouse effect. Debate, however, is ongoing over how 
        much the climate would change if greenhouse gas 
        concentrations rise unabated, and how adverse the 
        impacts would be. Most climate models project that 
        without strong policies stabilizing greenhouse gas 
        concentrations, global average temperatures during the 
        21st century are likely to increase above natural 
        variability by at least 1.5 Celsius or 2.7 Fahrenheit 
        compared to 1990, and not by more than 6.4 degrees 
        Celsius or 11.5 degrees Fahrenheit under other 
        assumptions.''

    I just want to ask the panelists, would you be in consensus 
agreement to those statements? Do you all agree that this is 
real, these are the facts, this is not something that somebody 
else made up or having an ideological bent because they don't 
believe that this is a bunch of hocus-pocus, this is real? 
Everybody agrees to this?
    I see some hands already, and I am glad you are getting the 
attention of this.
    As CRS says,

          ``Greenhouse gas-induced climate change would result 
        in more heat waves and droughts; decreased extreme cold 
        episodes; increased summer warming and dryness in the 
        central portions of continents; more intense 
        precipitation when it occurs, thereby increasing runoff 
        and flooding; accelerated melting and loss of snow and 
        ice, and global sea-level rise over several decades to 
        centuries; slowing of the Meridional Overturning 
        Circulation of the Atlantic Ocean, offsetting warming 
        of the North Atlantic, changing European and eastern 
        North American weather patterns; and natural positive 
        feedbacks of global warming that would reinforce and 
        accelerate the initial human-induced greenhouse gas 
        increases.''

    I appreciate the fact that the panel does have a consensus. 
You agree with what has been stated here as facts. I think all 
of you had your hands raised. I am trying to follow which line 
of questioning we had in mind. I think the gentlelady's initial 
statement posed some interesting issues or statements.
    Mr. Wheeler. If I could, just to enforce two of the points 
that Kemal and Tony made, the first on the question of 
adaptation and Kemal's excellent point about Bangladesh and the 
value of early warning there.
    What you have is the prospect, if we are smart about it, 
and if we craft assistance that will be truly helpful there, to 
arrive at a situation in midcentury where, even despite climate 
change, we can have fewer losses than we do now. There is 
tremendous room for improvement there, and that is a 
development task, and I think we should pursue it in good 
faith. It will have many benefits.
    The second point I wanted to make, just to reinforce again 
the points they made, everyone is talking about sparks at 
Copenhagen, but I think that this is actually misplaced. Just 
to reiterate, let me cite the case of South Africa for a 
minute.
    Now, the South Africans have had a remarkable history in 
the last few years, as we know. The transformation they have 
gone through has been extraordinary. They still face tremendous 
poverty problems, and they are sitting on a huge trove of cheap 
coal. So for South Africa from a poverty perspective, what 
makes sense is full steam ahead and burn that coal, and they 
burned a lot of it. But this year they have made a remarkable 
commitment to switch to renewable energy as far as they can, 
because they have a solar belt in their own desert in northern 
Botswana that can be exploited, and they are willing to 
sacrifice to attain that, and they are willing to put some of 
the cost in their rate base.
    But they have come to the World Bank, and I am sure they 
have come to our colleagues in our Government, and they have 
said, can you help us with this? We have made this commitment. 
I think they would fight a legal restriction in Copenhagen on 
their emissions, but they are paying the price themselves.
    So I am asking you in good faith, shouldn't we help them 
with that, and isn't that something we can agree on that 
involves no sparks and progressive change?
    Mr. Faleomavaega. I thank Dr. Wheeler. And in line with Mr. 
Dervis' comment about adaptation, I think that the tsunami 
showed we did not anticipate the situation of a serious tidal 
wave emanating from an earthquake where we didn't have--we were 
not prepared for it. But now we are making every effort to beef 
up our abilities, whether it be satellites or whatever it is, 
that we can next time be able to predict or anticipate, if 
there is an earthquake, producing such a disastrous tidal wave, 
that affected or killed several thousand people in Indonesia 
and other countries of the world.
    I think your point is well taken about adaptation. It is 
always good. What is it? An ounce of cure is worth a pound of--
am I saying it right? Anyway, something to that effect. 
Prevention is the best way to do this.
    What I recall in my sailing on this double-hull voyaging 
canoe was the inherent fear that in the middle of the night 
here, I would be sleeping, and these freak rogue waves that 
would be traveling the Pacific coming from nowhere. You are 
talking about waves about twice the height of telephone poles 
traveling at about 60 miles an hour, and I was a little worried 
about something like that happening, because it could go 
anywhere. Luckily, we just had a bunch of squalls and 
ministorms, but not something like that of a tidal wave or 
tsunami that does definitely kill people, if not given proper 
preparations to prevent people being hurt the way they were at 
that time.
    I think we are going in between the questions. Does the 
gentlelady have any questions she may want to raise for members 
of the panel?
    Ms. Watson. I do have some. Coming in so late, they 
probably have been addressed, but I would like to question Mr. 
Karl in the center there.
    I understand from your testimony that several islands, the 
Maldives and parts of Fiji, who are at risk of inundation due 
to sea level rise, and you also mentioned the vulnerability of 
cold-water coral and changes in fisheries due to climate 
change. In each of these occurrences, they will have a drastic 
economic impact.
    Can you describe the complexity involved in predicting the 
rate and the scale of future population flows related to 
climate change, and do we have sufficient reliable data?
    Mr. Karl. Thank you very much, Congresswoman. Basically I 
want to emphasize that the basic understanding of the 
fundamental science of greenhouse gases in the atmosphere and 
how they affect climate has not changed for 40 years.
    The National Research Council back in the late 1970s, under 
a couple reports--one was Dr. Smagarinski; another one was the 
Charney report--actually used numbers very similar to the 
numbers that our chairman just repeated in terms of the impacts 
of greenhouse gases on global temperatures. This has been 
validated by statements from all the major scientific societies 
in the world, not only our own National Research Council, but 
the other world academy of sciences panels and councils, the 
IPCC and our own U.S. Global Climate Research Program. So that 
part of the science we understand.
    The question you raised is really at the heart of where our 
uncertainty lies, and that is how well can we predict these 
very important regional effects? You mentioned a number of 
them, and I will just expound on some of them.
    Coral and the impact of the double whammy of ocean 
acidification, which we know has a strong impact on cold 
corals, but in addition they likely affect all corals. And on 
top of that we have something called coral bleaching when you 
get very high ocean temperatures, the tendency for corals to 
lose their coloration and eventually die due to these hot ocean 
temperatures. Those then can be compounded by other stresses. 
So you can see it is very difficult to predict exactly where 
and when specific corals will be threatened.
    We do know, in fact NOAA just put out a prediction for the 
summer, that due to the very high ocean temperatures, the 
corals are threatened in much of the Caribbean and parts of the 
Central Pacific. We are in an El Nino situation on top of the 
global increase in ocean temperatures, so potentially a serious 
situation could be unfolding later on this summer, and as the 
El Nino continues to strengthen, we may see more impacts.
    With respect to sea level, one of the major uncertainties 
we have is just what the contribution will be from the 
Greenland ice sheet to the rise in sea level. Present 
measurements suggest that Greenland is melting faster than what 
we have expected, and because of this, just a recent report 
that the U.S. Global Climate Change Research Program put out, 
the numbers for the expectations on global sea level rise have 
increased to somewhere between 3 to 4 feet under the higher 
emission scenarios, and right now we are on track to even 
exceed the higher emission scenarios based on the amount of 
carbon that has been emitted over the past 10 years.
    So the real science today that has much, much importance is 
to try to better understand these regional intricacies, what 
are going to happen to those typhoons in the Pacific, the 
hurricanes in the Atlantic, how much more intense are they 
going to become. These are areas where we don't have 100 
percent confidence, and this is where we need to improve our 
observational set and improve our modeling capability and our 
understanding to be able to provide that information so that 
when we try to adapt--because clearly we are going to have to 
adapt, because we already are committed to warming of another 
degree Celsius because the ocean heat and the lifetime of 
carbon in the atmosphere--we are going to have to better 
understand what we want to adapt to, and it is important to 
understand those regional changes.
    Ms. Watson. I am just reminded in my term out in the North 
Pacific very close to where our chair--well, the area that he 
represents, there was a 45-minute warning of a tsunami coming 
down to Micronesia. Well, what failed us was the equipment that 
the State Department had brought us. We could not contact our 
Peace Corps volunteers on the outer islands that are at sea 
level, and we panicked. We kept running out to watch the water 
level. Finally they announced that it had just fizzled out 
somewhere in the North Pacific. But we put everything to test, 
and we failed the test. So had that tsunami hit, we would have 
lost lives.
    So that leads me into what kind of information do we need 
to plan for future disasters? And they are going to come if we 
don't take care of the global warming patterns that we know 
exist. So can you help on just recommending?
    Mr. Karl. Yes. I can tell you, I think an important part, 
and you hit on it, is an engagement with partners and 
stakeholders. So sometimes, I don't want to say it is a little 
thing, but it is the part you might not think about is do we 
have the proper communications in those remote areas to get the 
warnings out?
    What I think is very important and what NOAA is trying to 
do is engage our partners in these various programs. There is a 
major education component to try to identify what the system 
has in terms of resiliency and vulnerabilities. We do have a 
number of programs in place to try and improve that capability, 
and I will be happy to submit that for the record, if so 
desired.
    [The information referred to follows:]<greek-l>Karl 
FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Watson. If I just may go on for a minute, what we did 
was we taught the local populations how to survive if they are 
aboard ship and so on. But what we need to do is help them cope 
when these natural disasters occur.
    Let me also move on to, I am resident of southern 
California. I represent Los Angeles, Culver City, Hollywood, 
and I am very aware how difficult it can be to deal with water 
crises. You know, we are in the desert. We got all our water up 
north, 6,000 miles of delta, and no water in the south. So 
political tensions increase when the areas with adequate water 
supplies and those without start bickering about their 
respective needs and the rights. We have three States in one.
    You noted, as I understand, in your testimony that Asia is 
a region of uneven water distribution and scarcity, and this 
region has seen rapid urbanization, and it is a hotbed of 
political uneasiness, especially in India, Pakistan and China.
    How can the United States Government encourage these 
nations to mitigate climate change, reduce pollution and 
increase the resilience in their localities and still remain 
politically friendly and not hinder development? That is a 
little bit of magic thrown in, too. But can you give us some 
suggestions?
    Mr. Karl. Well, I think clearly it is a ground up approach, 
boots on the ground. I know that we work with our International 
Research Institute that we fund, and they actually go to areas. 
For example, they are working on urban water supply problems in 
Manila, and again it is working with the local population and 
helping them understand what their resilience is and what their 
adaptation capacities are; similar things with fire forecasting 
and agriculture. And it really does take this engagement.
    We have this body of knowledge that is extremely important 
to be conveyed to folks who actually have to use it. That is 
quite a challenging task, and I think it is going to require, 
as we say, boots on the ground to encourage that dialogue and 
discussion.
    Ms. Watson. Thank you.
    I see I have 1 more minute and a few seconds. If I could 
continue, I would like to direct this to Mr. Dervis.
    I understand in your testimony you said that the fixed 
proportion of allowance revenue for adaptation financing is 
small in the beginning and will grow as the value of the 
allowance goes up. The U.N. and USAID have been known to 
provide aid that is specifically marked for certain uses. For 
example, in increasing the ability of small islands to provide 
electricity to their residents, aid money has provided for the 
expensive and polluting transport of diesel.
    Would isolated communities, be they in the middle of an 
ocean or in the plains of Africa, be better off predominantly 
using solar or wind energy sources? I have got more to that, 
but if you can just address that first part.
    Mr. Dervis. Thank you, Congresswoman.
    I think the quality of any kind of foreign aid, but 
particularly this adaptation aid, is, of course, going to be 
very important. There have been mistakes made in the past by 
various actors. I would think that there is tremendous 
opportunity for renewables and nonconventional sources of 
energy, including wind and solar. Of course, it depends on the 
particular climate, the particular area one is talking about.
    Nonetheless, there is a problem for all these sources 
worldwide, and that is the extreme variability in the cost of 
various sources of energy. I know many countries where wind 
energy would become very competitive, provided the cost of 
fossil fuels is not subsidized, or provided it doesn't go below 
a certain level. So the pricing of various sources of energy, 
including oil and gas, is an important component of this whole 
problem.
    We, of course, have faced extreme ups and downs in the 
price of oil. Last year around this time it was $145 a barrel. 
People were predicting it was going to be $200, and then it 
collapsed to $35. And now it is up to between $60 and $70. So 
this extreme variability makes it hard to choose the best mix.
    But coming back to your particular question, I think it is 
very important to look at the particular place, to use whatever 
resources that place has in the best possible way, and to have 
long-term approaches to these problems, because people can't 
switch their investments and their behavior overnight. So one 
has to have sustainable solutions.
    Ms. Watson. We are right now in one of our committees 
looking at how to particularly restructure USAID. So I would 
hope that you would go to Copenhagen with some of the 
suggestions that you are mentioning now. We need to restructure 
how we use resources for the best outcome.
    Thank you very much. I will yield back my time.
    Mr. Faleomavaega. I thank the gentlelady for her questions.
    Again, I appreciate, gentlemen, your patience in going 
through the line of questions that we have. I think some of the 
points that you made, and I thought Mr. Dervis' statement here 
to the most vulnerable societies, gives a real serious sense of 
ethical and moral challenges to those countries that have the 
opportunities that they have in sharing their resources for 
those countries that are poor.
    I also note with interest, Mr. Dervis, your statement that 
uncertainty shouldn't allow inaction, and I think you hit it 
right on the nail in terms of this issue should not be taken 
aback or just to think we are going to put it on the back 
burner, and it is going to go away.
    I do want to offer my apologies to the members of the panel 
for myself and for the staff to give you a little head notice 
in terms of we are now. I think we have a point of reference 
clearly stated by the passage recently of the Waxman-Markey 
bill, H.R. 2454, that specifically under Title IV of this bill, 
which provides for an international adaptation program creating 
a fund to carry out the program; consultations with USAID, 
Treasury and EPA; and the two mechanisms that are also outlined 
in this particular section of the bill.
    I am going to be writing to each of you specifically for 
your comments and for your input on the substance of this 
proposed bill, because this is the only reference that we now 
have in the Congress on how we are going to address this issue 
of climate change and what we should be doing to help the most 
vulnerable societies as has been the basis of this hearing.
    It is not so much that I don't care about the rich 
countries, because they already have the experts, they have all 
the people to confront and be able to debate and discuss the 
issues. But it is the poor countries, the most vulnerable, who 
don't have the resources, who don't have the means, who don't 
have the financial capabilities and the resources to address 
these issues. And I think we ought not to miss this point of 
making sure that they are just as important in our deliberative 
process when it comes before Copenhagen in the meeting coming 
up in January.
    So if it is all right with you gentlemen, I will be writing 
to you specifically. And I do want to say that I do value very 
much your input and comments on this very important issue. I 
cannot thank you enough for your taking the time to come and to 
share your expertise and your understanding of this very 
important issue.
    It is my hope that in the coming weeks, as I will be 
consulting with my colleagues on the subcommittee and also with 
Chairman Berman, that we will move this forward and to see that 
maybe we could finesse and make the legislation better than 
what it is now, what has been proposed.
    Of course, the other matter is the fact that we don't know 
what the Senate is going to do with the bill. But at least we 
have a starting point, and this is where I would deeply 
appreciate your suggestions on how we can maybe make 
improvements to the proposed legislation that is now before the 
Congress and, of course, will be before the Senate.
    As I said earlier, I will specifically be writing to each 
of you for your comments and help on this.
    All other added data or information that you wish to 
support or to add into the record, without opposition, it will 
be allowed, specifically this very thin report that Mr. Dervis 
has requested that it be made part of the record. It is by the 
Intergovernmental Panel on Climate Change, Technical Paper No. 
VI. It will be made part of the record. This is going to be 
quite a record.
    [Note: The information referred to, ``Climate Change and 
Water,'' IPCC Technical Paper VI, June 2008, is not reprinted 
here but is available in committee records and on the Internet 
at:
http://www.ipcc.ch/pdf/technical-papers/climate-change-water-
en.pdf (accessed 11/18/09).]
    Mr. Faleomavaega. This is the basis of how our democratic 
system operates, gentlemen. This is the opportunity that 
Congress has to hold oversight hearings, and hopefully by 
getting the truth, data and information that is important, that 
we can then craft legislation that will address the issues that 
are needed, especially the question of climate change.
    Gentlemen, I have no further questions. I would like to 
give each of you a chance for further comments before we close.
    One closing question: There seems to be some concern about 
China in terms of my understanding that China for the last 8 
years has been moving aggressively in addressing emission 
standards, in addressing pollution and the problems that they 
face, probably even a lot more than what we have done in our 
own country. To my understanding, almost 50 percent of the 
energy resources from our country comes from coal. And the 
supply of coal that we have in the United States, I think, is 
about for 500 years or even more. We have enough coal to supply 
our energy needs for the next 500 or 1,000 years. Then you have 
shale oil, then you have natural gas and all these other 
things. We have the natural resources.
    But it is the question of environment, it is the question 
of fairness or sense of equity by those who develop against 
those who think that maybe to the extremes, which I think is 
what we are trying to prevent here. I always get that 
stereotype of corporate greed, that they don't care about 
environmental needs, just as much as the opposite extreme of 
environmentalists who never even go to see for themselves the 
real serious needs of that given community or that given issue 
that people in that specific area know more about than those 
who think that they know what is best for the others.
    I think the statement from the African countries makes that 
quite clear about indigenous knowledge about climate conditions 
for something that the so-called technologies of the modern 
world are not able to address properly.
    So, I would like to pose just one last question. Give me 
the good and the bad about China and why you seem to have some 
concern about China's involvement with Copenhagen. Let us start 
from the right, Dr. Wheeler. We will go right down.
    Mr. Wheeler. I had substantial involvement with China when 
I was at the World Bank, Mr. Chairman, and I have to say that 
they are quite concerned about their own pollution problems, 
and they have actually moved quite aggressively on those.
    I am personally aware of legislative reform in China as of 
2 years ago. They passed a national law requiring that all 
major polluting facilities disclose their pollution to the 
people in the communities, which was, in China, in that 
context, a pretty revolutionary change.
    The party is behind that. The Communist Party itself is no 
monolith. They have different factions. They have an 
environmentalist faction. And my colleagues in the academic 
community in China and the research communities are very aware 
of the potential impact of climate change on China. They argue 
the case very strongly in the internal councils in China, and I 
think they have been heard.
    So the Chinese are actually taking a lot of very active 
measures along these lines. We need to respect that and 
acknowledge that, and that should be part of our dialogue with 
China.
    Mr. Faleomavaega. Before Dr. Janetos says something, this 
is something I always have to remind my colleagues on the 
committee. When China became an independent country in 1949, 
there were 400 million Chinese living at the time. After some 
220 years, we barely reached 323 million people in the United 
States. I don't care what kind of government, whether it is 
Communist, Socialist, democracy or what, 400 million people 
were living in China in 1949. So now it is 1.3 billion.
    I think sometimes we seem to lose perspective when you see 
the tremendous challenges for any government to address and why 
it is so serious that the leaders are trying so hard. I must 
say that Deng Xiaoping's historical decision in 1978 to change 
China's economic policy to be involved in the free-market 
system is the very reason why China now has come so 
tremendously in advance, even though 800 million people in 
China still live below the poverty level.
    So, seriously, this is not as something that always creates 
a sense of fear as if China is moving ahead of us and not 
realizing they have got social and economic issues that are far 
beyond what any of us here could well imagine or appreciate and 
understand.
    Dr. Janetos.
    Mr. Janetos. Thank you, Mr. Chairman.
    I completely agree with Dr. Wheeler. We in our own 
institute have research programs in two different cities in 
China working on the importance of building codes for increased 
energy efficiency.
    China is not a monolith. It is important because it is so 
large, just as we are important because we are so large.
    Thank you.
    Mr. Faleomavaega. Dr. Karl.
    Thank you, Dr. Janetos.
    Mr. Karl. I would comment similarly along the lines of Dr. 
Janetos, we have a number of important exchange programs with 
China, bilateral programs, where we share both data, 
observations, observing systems. They are a critical component 
for us to better understand what we discussed earlier with 
respect to those important regional impacts, and we have had 
some good relationships with them over the course of years.
    Mr. Faleomavaega. Mr. Dervis.
    Mr. Dervis. Well, Mr. Chairman, I think you summarized 
yourself extremely well, and one can add or summarize it 
following your words, that never in history have so many poor 
people been lifted out of poverty. But there are still many, 
many that need to progress a lot. I do believe that one has to 
keep that in mind.
    One has to be particularly careful on the trade issues, 
which have the greatest potential for very tough behavior and 
conflict that could hurt everybody, because while obviously the 
United States market is extremely important for China, we also 
have seen just 3 days ago that their reserves have now 
surpassed $2 trillion, of which almost $1 trillion is in U.S. 
Treasury bills. So there are points on both sides to be very 
careful about.
    But I would like to say also with the growth, with the 
importance, with the strength that China has achieved, now also 
does come the time that China has to join the international 
community in a very constructive way; that gradually it has to 
take greater responsibility for the state of the world in a 
way. And I hope that it will do that and that we all--the world 
community will encourage them in that direction.
    Thank you.
    Mr. Faleomavaega. Dr. Clark.
    Mr. Clark. China currently generates about 70 percent of 
their energy from coal. They are walking a tightrope from 
between trying to manage their economy, trying to control the 
impacts that they are having on the local, the regional and the 
world environment now, and at the same time trying to balance 
their relationships with other nations. They are throwing 
almost all the resources they can at their energy problem 
because they have bought into the idea that energy access is 
key to their solution in terms of addressing poverty. I think 
they are building 2 gigawatts of coal-burning electrical 
capacity. Every week now they are turning on a plant. And I 
think annually their construction rate exceeds all of the 
existing electrical-generation capacity of the continent of 
Africa.
    So China is of concern, first, because it is so large, and 
because they are attempting to build and they have been 
attempting to build a carbon-intensive infrastructure for 
energy provision. Now, I am not suggesting that that is 
something where they made a decision to do something that was 
going to harm the planet. Those were simply the choices that 
they had before them. They are aggressively trying to put 
renewable energy in, but they can't throw enough renewable 
energy into their system fast enough to deal with the peaking 
demands they are seeing across the board.
    They are also very aggressive economic competitors, and 
they are rising to the level of the U.S. in terms of their 
ability to influence manufacturing marketplaces throughout the 
world. And for the first time, 2 of the 13 provinces in China 
have now reached the point where their citizens are making 
enough money so that they can go out and they can buy cars, 
refrigerators, washing machines, microwaves, televisions, 
everything that we take for granted here.
    As the economy continues to evolve, more of the provinces 
will pass over the threshold. We will see more and more 
internalized consumer spending. And we see an economic process 
of decoupling that people have talked about for probably 
decades now that is really beginning to take root and take 
hold.
    And the reason that I think I am the source of some 
negative energy here today about China because of the comments 
that I made, I am very sympathetic of the situation that they 
face. I am also very sympathetic to the needs of our economy as 
well. We are reaching a period where our influence is going to 
continue to wane. And our ability to encourage them to move 
more rapidly in the direction of a lower carbon footprint for 
their nation, our ability is going to go away, and I don't want 
to see this climate negotiation go through. You mentioned that 
the United States didn't participate in Kyoto. Well, to be 
honest, neither did India or China. They had no binding targets 
to make. They made no substantive commitments.
    Would I would like to see personally is something where we 
would get some form of binding commitments and participation by 
all the players, as you indicated before. I think that is 
absolutely critical.
    So China is important in that regard. So it is a growing 
industrial superpower. They have set their government system up 
now. Even though their national government is pushing for 
renewable energy and pushing harder on environmental impacts, 
they have lost a degree of control in their economic 
development plans that have devolved down to the provincial and 
to the city levels. That is why they have so much access, have 
the industrial capacity that has been built and continues to be 
built.
    They also have a problem with transparency that is our 
culture as far as business is concerned, and we can't 
necessarily understand just how the government is involved with 
many of the state-owned enterprises. These are all challenges, 
and they all need to be worked out.
    The comment I made to Ranking Member Manzullo a few moments 
ago was these economic issues, these are the underpinnings of 
the foundation of the Copenhagen negotiations. It is not just 
climate change. This is going to be a negotiation about the 
economic future of the developed and developing nations and how 
they are going to coexist not only environmentally, but 
economically. I think that is going to begin to show up within 
the negotiations that we see once they get underway.
    Mr. Faleomavaega. I think the symptoms are already in 
place. What I mean by this is that what happened recently with 
our own economic recession, our own so-called experts on 
economic policies and theories. My sense is now there seems to 
be a regional response to say that the West has failed by its 
own economic policies and causing the global and economic 
environment in a worst way. There seems to be now issues raised 
in China, Brazil, non-Western countries suggesting that there 
needs to be a change in economic policies for 50 years or maybe 
even 100 years. Again I am not an economist.
    The whole world is always dependent on the dollar as the 
basis of determining what would be the best decisions, or 
evaluations, or policies affecting the economies of various 
countries of the world. China is now questioning the validity 
of how we have gone about in addressing the very issues as a 
result of Wall Street, what lack of regulation, I guess you 
might say. And correct me if I am wrong, but China and Canada 
are probably among the few countries in the world economically 
that are stable because they took regulatory measures to make 
sure that banks don't run the derivatives and all these fancy 
theories and things that we, the best economists or financial 
people in Wall Street, ended up doing and find ourselves now in 
economic chaos, if you want to put it in those terms. And we 
are having to pay for this.
    So I think in line with that we need to look at--and I am 
talking about the big, big picture--not just putting our 
economic situation into more stable conditions, but to say, is 
the Western model really the best way to follow as a result of 
what we have produced? And then causing whatever the economic 
problems that we have created, it has serious implications in 
world markets and other countries that are also affected by 
this seriously.
    So I am not criticizing, just suggesting that. Again, I am 
not an economist, but I am just simply saying our failure as a 
Western country in not getting our own economic policies in the 
best way is now leaving some very serious questions by other 
countries of the world that we need to take corrective action 
and make sure that these things don't happen again.
    Dr. Wheeler.
    Mr. Wheeler. Mr. Chairman, if I could suggest one area 
which is related to your remarks that might bear scrutiny by 
you and your committee. As you think about Waxman-Markey and 
improvements, it goes to the way in which the resources to be 
allocated to clean technology development and so forth will be 
allocated in this world, because there are two models. One is a 
multilateral model, and the other is a bilateral model. And I 
think that is under active discussion.
    Along the lines of the point you just made, I would cite 
the case of the Clean Technology Fund at the World Bank which 
has now been chartered with 20 members representing the G-20 
basically. So it is a new model of governance. It is not like 
the old model in the World Bank. And that could be an important 
channel for the funds that will be needed to address some of 
these problems.
    But I think for the Congress it is a very important issue 
to resolve there on bilateral versus multilateral, and whether 
or not and how much should be committed to these new 
multilateral, broadly governed channels, because it is a 
progressive new force in the world. It is something to be taken 
seriously, I think.
    Mr. Faleomavaega. Do you think that also by way of our own 
national policies, given the fact that I think somewhere 
between 25 and 30 percent of the assets in the World Bank, the 
Asian Development Bank and International Monetary Fund are from 
the United States, that maybe we could use that as a source of 
influence on how we could better allocate the billions and 
billions of dollars that these regionalist banking institutions 
supposedly are to serve and to give assistance to the needs of 
the world?
    Again, I am not an economist. I just notice that all of you 
practically have had experience, serious experience, in dealing 
with these regional banks. And I just wonder have we asserted 
our 25 percent ownership of these banks in such a way that 
maybe addressing the very issue that we are discussing this 
afternoon?
    Mr. Wheeler. Sir, I would defer to my colleague, Kemal 
Dervis. We have here today the ranking expert on this issue.
    Mr. Faleomavaega. Mr. Dervis, would you care to comment? I 
was going to say I had only one more question, but I can't help 
it, I am really enjoying this dialogue.
    Mr. Dervis. Well, I think the fact that these issues are so 
global and involve so many countries in the world, I think it 
is a good argument for strongly involving the multilateral 
institutions, the World Bank, on energy in particular, because 
it has long-term ability to lend and to discuss policy 
frameworks, projects, sectors and so on.
    At the same time I do believe bilateral efforts also have 
their role to play. I think the strengthening of the U.S. aid 
mechanism of USAID is important. For the next two or three 
decades, we will have both channels, the national channels, the 
bilateral channels and the multilateral ones. I have, of 
course, lived in the multilateral ones for a good part of my 
life, and I do believe they are quite useful. But also 
taxpayers like to see their own country act, not always just 
multilaterals, so it is a question of equilibrium. One has to 
use both.
    I do believe the very fact that the World Bank is in 
Washington, just very close, makes it an institution that is 
close to American policymakers. It is easy to talk, to discuss 
things. And at the same time it is multilateral, the whole 
world is there, and therefore it is an instrument that can be 
used very effectively.
    Thank you.
    Mr. Faleomavaega. Gentlemen, I think I have held you here 
too long here this afternoon. Again, I really, really 
appreciate your participation and the comments that you have 
made. It is going to be a tremendous help to the subcommittee.
    Again, you will be getting a letter from me in the very 
near future to see how we can better attack the Waxman-Markey 
version of how we can be helpful to these vulnerable societies 
dealing with climate change.
    Thank you very, very much. The hearing is adjourned.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
